                                                                 UNCLASSIFIED


                                                United States Department of State
	 
	
                                             and the Broadcasting Board of Governors
	 
	
                                                    Office of Inspector General
	
	




                                                         Office of Audits
	
Office of Inspector General



                                                                         
	


                                             Audit of Contracting Officers'
	
                                                                          
	
                                            Delegated Procurement Authority
	 
	
                                             for Overseas Contract Awards
	
	

                                               Report Number AUD/CG-12-33, June 2012




                                                                 Important Notice

                                This report is intended solely for the official use of the Department of State or the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be
                                made, in whole or in part, outside the Department of State or the Broadcasting Board
                                of Governors, by them or by other agencies of organizations, without prior
                                authorization by the Inspector General. Public availability of the document will be
                                determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                                disclosure of this report may result in criminal, civil, or administrative penalties.



                                                                UNCLASSIFIED
	
	
                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

        This report addresses compliance with Federal and Department regulations for
contracting officers and specific requirements for contracting officers not to exceed their
delegated procurement authorities for overseas contract awards. The report is based on
interviews with employees and officials of relevant agencies and institutions, direct observation,
and a review of applicable documents.

       OIG contracted with the independent public accountant Kearney & Company, P.C., to
perform this audit. The contract required that Kearney & Company perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney & Company's report is included.

       Kearney & Company found that for overseas contract actions totaling $2.5 billion over a
3-year period that the Department was in compliance with applicable regulations and that the
impact of contracting officers exceeding their warrant authority was minor. The report did
recognize areas to strengthen related internal controls.

        OIG evaluated the nature, extent, and timing of Kearney & Company's work, monitored
progress throughout the audit, reviewed Kearney & Company's supporting documentation,
evaluated key judgments, and performed other procedures as appropriate. OIG concurs with
Kearney & Company's findings, and the recommendations contained in the report were
developed on the basis of the best knowledge available and were discussed in draft form with
those individuals responsible for implementation. OIG's analysis of management's response to
the recommendations has been incorporated into the report. OIG trusts that this report will result
in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.


                                         J/~dd?~~~~r
                                         Harold W. Geisel
                                         Deputy Inspector General
                                        UNCLASSIFIED 



Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (referred to as "we" in this letter), is pleased to submit this
performance audit report related to the evaluation ofthe extent to which the Department of
State's (Department) contracting officers (CO) exceeded their delegated procurement authority
for contracts that are awarded overseas. This audit was requested by the Department's Office of
Inspector General (OIG) as a result of a control deficiency identified during the FY 2010
financial statement audit of the Department.

This audit was designed to meet the objective identified in the section "Objective" ofthe report
and in Appendix A, "Scope and Methodology" except where specific limitations were noted.
Findings and recommendations for overseas contract actions are provided in this audit report;
domestic contract actions were previously reported by OIG in its report Audit ofContracting
Officers Exceeding Delegated Procurement Authority (AUD/CG-12-26, March 2012).

Similar to the March 2012 report, we were unable to determine the reliability of the contract
actions population for overseas contract actions because of certain limitations, which are detailed
in Appendix A.

To provide quantitative information about the nature of unauthorized commitments, specifically
COs' exceeding their delegated authority on overseas contract actions, and to highlight root
causes of the deficiency, we present the data as reported by the Department.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. The purpose of this report is to communicate
the results of our audit and its related findings and recommendations.

We would like to thank the Department offices involved for their cooperation during this audit.




Kearney & Company, P.C.
Alexandria, Virginia
February 17, 2012




                                        UNCLASSIFIED 

                                    UNCLASSIFIED
	
	



Acronyms
Acronym      Definition
A/OPE        Bureau of Administration, Office of the Procurement Executive
A/LM/AQM     Bureau of Administration, Office of Logistics Management, Office of
             Acquisitions Management
CAP          corrective action plan
CO           contracting officer
CS           contracts specialist
Department   Department of State
DOSAR        Department of State Acquisition Regulations
FAR          Federal Acquisition Regulation
GFMS         Global Financial Management System
Kearney      Kearney & Company, P.C.
OIG          Office of Inspector General
RM           Bureau of Resource Management




                                    UNCLASSIFIED 

                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Results of Audit ...................................................................................................................4 


           Finding A. Three Overseas Contracting Officers' Exceeded Their Warranted 

           Authority Without Ratification ...............................................................................4 

           Finding B. Monitoring Controls To Identify Overseas Unauthorized 

           Commitments Need To Be Strengthened ................................................................7 


List of Recommendations ....................................................................................................9 


Appendices
   A. Scope and Methodology .......................................................................................10


   B. Embassy Mexico City Response ...........................................................................13


   C. Embassy Abu Dhabi Response ............................................................................14

   D. Embassy Pretoria Response .................................................................................15

   E. Office of the Procurement Executive Response ...................................................17 





                                                            UNCLASSIFIED 

                                              UNCLASSIFIED


                                          Executive Summary
        Kearney & Company, P.C. (referred to as “we” in this report), conducted a performance
audit to determine the extent to which contracting officers (CO) were exceeding their delegated
procurement authority for the award of overseas contracts. We also identified the amount of
obligations related to Department contract actions (excluding grants and cooperative agreements)
that exceeded the delegated procurement authorities of the COs and therefore represented
unauthorized non-binding agreements. To conduct this audit, we attempted to complete a
sampling-based approach to project the dollar value of contract actions initiated or modified
during FYs 2008–2010 for which the assigned COs exceeded their delegated procurement
authority. This audit was requested by the Department of State (Department), Office of
Inspector General (OIG), as a result of a control deficiency identified during the FY 2010
financial statement audit of the Department.

       This report is being issued subsequent to the March 20121 OIG report on domestic
contract actions. Similar to the March report, we found that the completeness and reliability of
the contract actions population for either domestic or overseas contract actions could not be
determined because of certain reporting limitations in the Global Financial Management System
(GFMS). For the contract actions tested, we identified cases in which contracting authority was
exceeded and actions were not ratified. Fieldwork was originally scheduled to end as of
October 15, 2011, but it was extended until February 17, 2012, for overseas contracts to allow
for additional time to obtain supporting documentation for overseas contract actions.

        Overall, we determined that COs issuing awards overseas were complying with the limits
of their delegated warrant authorities. Specifically, based on our sample of 105 overseas contract
actions, totaling approximately $125 million, entered into by the Department from FYs 2008–
2010, we identified three overseas contract actions in which the Department was unable to
provide sufficient evidence to demonstrate that the signing official had the appropriate warrant
authority or that an approved waiver had been received. Two of the three contract actions were
significant, with awards made in excess of about $900,000 over the CO’s delegated warrant
authority. Internal controls were not in place to identify these unauthorized commitments and to
periodically compare overseas contract actions with the COs’ warranted authority.

        Our recommendations to the respective bureaus, offices, and overseas posts focused on
compliance with Federal and Department regulations and authorities governing the limits of
contractor warrant authority and on improving internal controls related to overseas contract
award actions. Responses from Embassy Mexico City (Mexico), Embassy Abu Dhabi (United
Arab Emirates), and Embassy Pretoria (South Africa) are in Appendices B, C, and D,
respectively, and the response from the Bureau of Administration’s Office of the Procurement
Executive (A/OPE) is in Appendix E.

      Embassy Mexico City, Embassy Abu Dhabi, and A/OPE concurred with the
recommendations addressed to them, but Embassy Pretoria did not concur with its


1   Audit of Contracting Officers Exceeding Delegated Procurement Authority (AUD/CG-12-26, March 2012).
                                                   1
                                              UNCLASSIFIED
                                               UNCLASSIFIED
	
	

recommendation. As a result, three recommendations are considered resolved, pending further
action, and one recommendation is unresolved.

       Management’s comments have been considered and incorporated into the report as
appropriate, and management’s responses to the recommendations and OIG’s analyses are
presented after each recommendation.

                                                 Background
        We were separately engaged by OIG to audit the financial statements of the Department
as of September 30, 2010. In planning and performing our financial statement audit work, we
conducted testing of the internal controls over the Department’s procurement and payment
processes.

        Our test work over internal controls related to these processes identified a deficiency
related to the controls over contract authority delegated to COs. A deficiency in internal control
exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect and correct
misstatements and/or noncompliance with laws and regulations on a timely basis.

        As part of the FY 2010 financial statement audit, we tested 139 obligations and
disbursement transactions to ensure that the CO who had signed the obligating documents had
the proper authority to enter into the respective contracts. Of the contract actions tested, we
indentified 22 contract actions in which we could not confirm that the CO had proper warrant
authority. We found that the Department did not have an effective process to ensure that COs
adhered to the level of procurement authority delegated to them by the Department. In several
instances, additional evidence was provided to clear the FY 2010 exceptions subsequent to the
FY 2010 financial statement audit.

       The Federal Acquisition Regulation2 (FAR) states that contracts may be entered into and
signed on behalf of the Government only by contracting officers. The FAR3 further states the
following:

          Contracting officers have authority to enter into, administer, or terminate
          contracts and make related determinations and findings. Contracting officers may
          bind the Government only to the extent of the authority delegated to them.
          Contracting officers shall receive from the appointing authority clear instructions
          in writing regarding the limits of their authority.

      Failure to follow these regulations is a violation that creates an unauthorized
commitment.



2   FAR 1.601(a), “Career Development, Contracting Authority, and Responsibilities–General.”
3   FAR 1.602-1(a), “Authority.”
                                                    2
                                               UNCLASSIFIED
                                               UNCLASSIFIED
	

        An “unauthorized commitment” is defined in the FAR4 as “an agreement that is not
binding solely because the Government representative who made it lacked the authority to enter
into that agreement on behalf of the Government.” Unauthorized commitments violate Federal
law, Federal regulations, the Government-wide Standards of Conduct for Federal Employees,
and Department acquisition regulations. The process for converting an unauthorized
commitment to a legal contract is called “ratification,” which the FAR5 defines as “the act of
approving an unauthorized commitment by an official who has the authority to do so.” A CO
who exceeds delegated authority may make improper purchases, which increases the risk of
waste, fraud, or abuse. In addition, agreements for large dollar amounts are frequently complex.
If a CO executes agreements above his or her delegated authority, the CO may not have the
appropriate training, experience, or knowledge to properly execute the agreement. Without a
formal ratification of unauthorized commitments, the Government is not bound by the
agreement, which places additional risk on the vendor of not being paid for goods and services
delivered.

         Department of State Acquisition Regulations (DOSAR)6 require all unauthorized
commitments in excess of $1,000 to be submitted to the Department Procurement Executive for
ratification. The DOSAR requires substantial written documentation for the ratification to be
considered by the Procurement Executive, including a signed statement of the facts discussing
why normal acquisition procedures were not followed, a statement as to why the CO should not
be personally liable for the cost, a statement as to whether the CO has ever been responsible for
any other unauthorized commitments in the Department, and a statement as to the number of
unauthorized commitments processed by the responsible office within the last three calendar
years and the circumstances surrounding each of these actions. The responsible bureau, office,
or overseas post is required to clear the ratification request prior to final review and adjudication
by the Procurement Executive.

                                                   Objective
        The objective of this audit was to determine the extent to which COs awarding overseas
contracts exceeded their delegated procurement authority. We also identified the amount of
obligations related to Department contract actions (excluding grants and cooperative
agreements7) that exceeded the COs’ delegated procurement authorities and therefore
represented unauthorized, non-binding agreements. We took the following actions:

        Determined the impact of unauthorized commitments on the Department.
        Identified the root causes of the control deficiencies that could enable unauthorized
         commitments.


4 FAR 1.602-3(a), “Ratification of Unauthorized Commitments.” 

5 Ibid. 

6 DOSAR 601.602-3, “Department of State Acquisition Regulation System–Ratification of unauthorized


commitments.” 

7 An agency may provide financial assistance through various types of transactions, including grants and


cooperative agreements. These types of contractual instruments are outside the scope of this audit and require 

separately issued authority. 

                                                    3
                                               UNCLASSIFIED
                                                UNCLASSIFIED
	
	

        Determined whether the Department had developed any corrective action plans (CAP) for
         the control deficiencies noted.
        Made recommendations on how the Department could better address the root causes of
         the control deficiencies if necessary.

                                               Results of Audit
        With 141,562 overseas contract actions8 for FYs 2008–2010, totaling $2.5 billion,
contracting officers overall were complying with the limits of their delegated warranted
authorities set by the Bureau of Administration, Office of the Procurement Executive (A/OPE).9
Based on our sample of 105 overseas contract actions, totaling approximately $125 million,
entered into by the Department from FYs 2008–2010, we identified three overseas contract
actions in which the Department was unable to provide sufficient evidence to demonstrate that
the signing official had the appropriate warrant authority or that an approved waiver had been
received. During FYs 2008–2010, overseas posts reported 151 unauthorized commitments,
totaling $8.9 million, to A/OPE for review and action. However, internal controls were not in
place to prevent or identify the three unauthorized commitments we identified. Therefore,
without formal ratification for previously unknown unauthorized commitments, the Department
was not in compliance with provisions of FAR 1.602-3(a).

        We were unable to review a CAP to remediate the control deficiency for delegated
contract authority noted in the FY 2010 financial statement audit of the Department. This
occurred because the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management (A/LM/AQM), did not agree that a control deficiency existed.
Therefore, a formal CAP was not developed between the end of the FY 2010 financial statement
audit and the initiation of this performance audit.

Finding A. Three Overseas Contracting Officers Exceeded Their Warranted
Authority Without Ratification
        Of 105 contract actions sampled, we identified three instances (2.9 percent) in which the
CO exceeded his or her warranted authority without proper ratification. Focusing on a
population of overseas contract actions that took place from FYs 2008–2010, we obtained a copy
of the contract and the CO’s warrant to determine whether the person signing the contract had
sufficient warrant authority. The three instances were determined using information provided by
the Department in response to our testing sample. The three instances were assigned to three
different COs at three different post locations and totaled $2.5 million in contract actions. Only
one of the three COs had warrant authority as of the end of fieldwork. The three exceptions were
concentrated in FY 2009. The three instances in which a CO exceeded his or her warranted
authority without ratification are listed in Table 1.



8 Contract action totals include both obligations and deobligations. (Specific details on the overseas population are 

in Appendix A of this report.) 

9 DOSAR 601.603-3, “Department of State Acquisition Regulation System–Appointment.” 


                                                     4
                                                UNCLASSIFIED
                                                  UNCLASSIFIED



Table 1. Instances of Overseas Contracting Officers Exceeding Warrant Authority Without
Ratification
                       Amendment                                    Contract            System          Warrant
     Contract #                          Overseas Location
                           #                                        Amount           Contract Date     Authority*
 SMX53007C0001        M004             Embassy Mexico City         $ 1,151,713.86         2/20/2009    $   250,000.00
 STC10009M1645        0                Embassy Abu Dhabi           $ 1,150,000.00         9/29/2009    $   250,000.00
 SSF75009M0652        0                Embassy Pretoria          $ 239,786.97               3/3/2009   $   100,000.00
*These amounts represent commercial warrant authority for commercial supplies and services.
Source: Federal Procurement Data System – Next Generation (FPDS-NG).


        Representatives from U.S. Embassy Mexico City, Mexico, stated that A/OPE’s waiver of
authority10 had been requested and obtained but that only the approval for the base contract
(including the option year) was provided. The contract action tested was a 6-month extension to
the option year and was not covered by prior approvals. Embassy representatives were unable to
provide documentation showing that A/OPE approval had been requested or received for this
specific modification.

       The former Financial Management Officer at U.S. Embassy Abu Dhabi stated that
A/OPE approval had not been obtained because funding was received at the end of the fiscal year
and that the procurement needed to be completed within 48 hours before the funding expired.

        For the one contract deficiency found at U.S. Embassy Pretoria, South Africa, the then-
Embassy procurement office supervisor stated that the contract solicitation was performed by a
CO who had a sufficient warrant authority of $250,000 but that at the time of award, the CO
could not perform the duties required because of an emergency situation. Because the CO was
not available to sign the contract, a backup CO signed the contract in the CO’s absence. The
backup CO had only a $100,000 warrant authority, which was not sufficient for the contract
action at $239,786.97. During discussions, the Embassy Pretoria procurement office supervisor
stated that embassy officials were not aware that the backup CO had signed a contract over
warranted authority and that it had created an unauthorized commitment. However, in response
to a draft of this report, the post’s Management Officer diagreed that an unauthorized
commitment had occurred, stating that the primary CO had left verbal authority for the backup
CO to approve the contract in her absence.

       Because of the high risk of contract award and administration activities in Iraq and
Afghanistan, OIG judgmentally selected six contract actions and found that all award actions had
been executed properly. These awards covered the Bureaus of Near Eastern Affairs and South
and Central Asian Affairs at Embassies Baghdad and Kabul, respectively, with a total contract
award amount of $3.3 million.




10 A waiver of authority is a one-time approval by the Office of the Procurement Executive that allows a contracting
officer a higher warrant authority for a specific contract award action.

                                                       5
                                                  UNCLASSIFIED
                                UNCLASSIFIED
	

Recommendation 1. OIG recommends that the Management Counselor, Embassy
Mexico City, Mexico, assess the identified unauthorized commitment to determine
whether ratification was appropriate and, if so, complete the ratification process as
described in Department of State Acquisition Regulations (subpart 601.602-3).

Embassy Mexico City Response: The Management Counselor agreed with the
recommendation to assess the identified unauthorized commitment to determine whether
ratification is appropriate.

OIG Analysis: Based on the response, OIG considers the recommendation resolved,
pending further action. The recommendation can be closed when OIG reviews and
approves documentation showing that the embassy has completed its assessment of the
identified unauthorized commitment to determine whether ratification is appropriate.

Recommendation 2. OIG recommends that the Management Counselor, Embassy Abu
Dhabi, United Arab Emirates, assess the identified unauthorized commitment to
determine whether ratification was appropriate and, if so, complete the ratification
process as described in Department of State Acquisition Regulations (subpart 601.602-3).

Embassy Abu Dhabi Response: The Management Counselor concurred with the
recommendation, stating that the embassy had determined that “a ratification would be
appropriate” and that a draft ratification package had been submitted to A/OPE in March
2012.

OIG Analysis: Based on the response, OIG considers the recommendation resolved,
pending further action. The recommendation can be closed when OIG reviews and
approves documentation for the final ratification package to A/OPE. To ensure that a
potential year-end spending violation did not occur, OIG also requests documentation
showing the vetting and approval of this acquisition by the Office of Overseas Schools
and the Bureau of Near Eastern Affairs and documentation showing that funds for this
acquisition had been received “48 hours prior to the close of the fiscal year.”

Recommendation 3. OIG recommends that the Management Counselor, Embassy
Pretoria, South Africa, assess the identified unauthorized commitment to determine
whether ratification was appropriate and, if so, complete the ratification process as
described in Department of State Acquisition Regulations (subpart 601.602-3).

Embassy Pretoria Response: The Management Counselor disagreed that this action
constituted an unauthorized commitment. The Management Counselor stated the primary
CO “integrally managed the entire acquisition process, from solicitation, competitive
process, contract award, and contract administration” and that “the back-up CO approved
the contract based on the primary CO’s verbal authority to approve it in her absence.”

OIG Analysis: As stated in FAR 1.602-1(a), “Authority,” “Contracting officers shall
receive from the appointing authority clear instructions in writing regarding the limits of
their authority.” Therefore, according to that FAR section, warrant authority can come
                                          6
                                 UNCLASSIFIED
                                              UNCLASSIFIED
	
	

          only from A/OPE, and a CO cannot delegate warrant authority to another officer. Since
          the backup CO did not have sufficient warrant authority to enter into that agreement on
          behalf of the Department, Contract No. SSF75009M0652 should be considered an
          unauthorized commitment and should be submitted to A/OPE for it to determine whether
          ratification is necessary.

          This recommendation is unresolved. OIG requests that the embassy reconsider its
          response to the recommendation and take the actions recommended. This
          recommendation can be considered resolved if Embassy Pretoria concurs with the
          recommendation and can be closed when OIG reviews and accepts documentation
          showing that Embassy Pretoria has submitted the ratification package to A/OPE.

Finding B. Monitoring Controls To Identify Overseas Unauthorized
Commitments Need To Be Strengthened
       A/OPE did not have a formal monitoring control to proactively identify overseas
unauthorized commitments and ensure that ratification occurred on all unauthorized
commitments exceeding $1,000. Since an automated procurement system control preventing
COs from entering into agreements beyond their warranted authority did not exist, A/OPE relied
on an extensive communication, certification, and training plan to issue warrants and inform
warranted officials of their responsibilities and limitations.

         During fieldwork, we noted that A/OPE processes and procedures11 to identify
unauthorized commitments for commercial supplies and services were reactive in nature and
relied on COs’ creating overseas unauthorized commitments or cognizant management officials
reviewing the procurement to notify A/OPE of the need for ratification. As previously noted,
overseas posts reported 151 unauthorized commitments to A/OPE during FYs 2008–2010, but
only 45 unauthorized commitments were made by individuals who had warrant authority at one
time in their careers. A/OPE maintained a ratification database to track known requests for
ratification, but it could not ensure that this database was complete or that it captured all
instances in which a CO exceeded his or her warranted authority. Most of the 151 cases were
attributable to individuals who did not have contract warrant authority at their assigned post or
who had contract warrants that had expired. The main cause of unauthorized commitments was
that individuals who were not active COs or who had never had warrant authority entered into
contracts. While this audit identified only three unidentified unauthorized commitments from a
sample of 105 commitments, the additional 151 known unauthorized commitments reinforces the
need for added controls at the A/OPE level.

       We found that communications issued through the A/OPE Web site and Intra-
Departmental procurement circular, including A/OPE’s Overseas Contracting and Simplified
Acquisition Guidebook, reinforced A/OPE’s overseas policy. However, further controls were
needed to detect unauthorized commitments. While A/OPE leveraged a continuous learning
model to offer refresher training and briefings to overseas warranted officials, including

11   The Overseas Contracting and Simplified Acquisition Guidebook.
                                                   7
                                              UNCLASSIFIED
                                       UNCLASSIFIED
	
	

information on the severity of unauthorized commitments, these training and communication
strategies did not prevent or detect the creation of overseas unauthorized commitments. An
automated procurement system control that links warrant authority to requisition amounts would
prevent COs from exceeding their authority without an authorized waiver. In the absence of an
automated control, given the cost to design and modify existing procurement systems, a manual
control to detect unauthorized commitments is recommended.

       Recommendation 4. OIG recommends that the Procurement Executive, Bureau of
       Administration, Office of the Procurement Executive, develop either an automated
       control or a manual control to compare overseas contract actions against warranted
       authority at least annually and, if potential unauthorized commitments are identified,
       request that post determine whether ratification is appropriate.

       A/OPE Response: A/OPE concurred with the recommendation, stating that it would
       “either request funding for an automated control or implement a manual control if
       resources are available to compare overseas actions against warranted authority at posts.”

       OIG Analysis: Based on the response, OIG considers the recommendation resolved. The
       recommendation can be closed when OIG reviews and accepts documentation showing
       that a determination for the design and implementation of a manual or automated control
       has been completed.




                                            8
                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Management Counselor , Embassy Mexico
City, Mexico, assess the identified unauthorized commitments to determine whether ratification
was appropriate and, if so, complete the ratification process as described in Department of State
Acquisition Regulations (subpart 601.602-3).

Recommendation 2. OIG recommends that the Management Counselor, Embassy Abu Dhabi,
United Arab Emirates, assess the identified unauthorized commitment to determine whether
ratification was appropriate and, if so, complete the ratification process as described in
Department of State Acquisition Regulations (subpart 601.602-3).

Recommendation 3. OIG recommends that the Management Counselor, Embassy Pretoria,
South Africa, assess the identified unauthorized commitment to determine whether ratification
was appropriate and, if so, complete the ratification process as described in Department of State
Acquisition Regulations (subpart 601.602-3).

Recommendation 4. OIG recommends that the Procurement Executive, Bureau of
Administration, Office of the Procurement Executive, develop either an automated control or a
manual control to compare overseas contract actions against warranted authority at least annually
and, if potential unauthorized commitments are identified, request that post determine whether
ratification is appropriate.




                                            9
                                       UNCLASSIFIED
                                              UNCLASSIFIED
	
	


                                                                                             Appendix A

                                       Scope and Methodology
         Kearney & Company, P.C. (referred to as “we” in this appendix), assessed performance
criteria for this audit based on Federal Acquisition Regulation and Department of State
Acquisition Regulations. We focused on the impact and analysis of the root causes of the control
deficiencies and the need for development of corrective action plans (CAP). The scope of the
audit included contract actions initiated or modified during FYs 2008–2010.

       This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

       In the Planning Phase of the audit, we developed an understanding of the process for
delegating warranted authority, determined training and certification requirements, and identified
controls in place to monitor the assignment of warrant authority. Additionally, we gained an
understanding of the Department of State’s (Department) ratification procedures and controls.
The main goal of the Planning Phase was to identify the Department’s established internal
controls for preventing and ratifying unauthorized commitments.

        In the Testing Phase, we developed performance audit criteria, which were accepted by
the Office of Inspector General (OIG). To test the Department’s compliance with procurement
regulations, we attempted to obtain two separate populations of contract actions from FYs 2008–
2010. The actions were identified as contract actions completed domestically, which were
evaluated at 100 percent, or contract actions completed overseas, which were sampled based on
identification of high-risk posts, countries, bureaus, and regions. For the overseas contracts, we
targeted locations with a large number of contract actions over $250,000. In addition, we
focused on higher risk posts (Iraq and Afghanistan) and secured procurements. A random
sample from the combined population was used to select the sample. As noted in the report
section “Executive Summary,” we were unable to verify the reliability of the contract actions
population for either domestic or overseas contract actions because of certain reporting
limitations in the Global Financial Management System (GFMS). GFMS does not interface with
the necessary procurement information from overseas procurement systems to confirm a
complete and accurate overseas contract actions population.

        The Department was unable to provide sufficient audit evidence for overseas contract
actions before the initial fieldwork was completed on October 15, 2011. As a result, fieldwork
for overseas contract actions was extended to February 17, 2012. This report is being issued
subsequent to the March 2012 OIG1 report on domestic contract actions. Findings and
recommendations for overseas contract actions are provided in this audit report, and findings and
recommendations for domestic contract actions were reported in OIG’s March 2012 report.

1   Audit of Contracting Officers Exceeding Delegated Procurement Authority (AUD/CG-12-26, March 2012).
                                                   10
                                              UNCLASSIFIED
                                              UNCLASSIFIED

        After reviewing all documentation provided by the post and the Bureau of
Administration, Office of the Procurement Executive (A/OPE), we followed up with the General
Services Officers and contracting officers (CO) at the four posts (Embassy Pretoria, South
Africa; Embassy Mexico City, Mexico; Embassy Bogota, Colombia; and Embassy Baghdad,
Iraq) that had potential unauthorized commitments. We requested any additional documentation
that had not been provided previously and determined the causes of the unauthorized
commitments. In addition, we contacted A/OPE to determine whether it had any documentation
showing prior approval of the contract actions. During followup discussions with selected posts,
we were able to resolve open questions and potential exceptions for Embassies Bogota and
Baghdad.

       We leveraged multiple procurement data sources, including GFMS and the Federal
Procurement Data System – Next Generation2 (FPDS-NG), to develop a complete population of
contract actions from FYs 2008–2010, but we were unable to confirm the completeness and
accuracy of the population. Nevertheless, in order to provide quantitative information about the
nature of unauthorized commitments, specifically COs exceeding warranted authority, and to
highlight root causes of the deficiency, this report presents the data as reported by the
Department and acquired through FPDS-NG.

        We conducted an exit conference with officials from the Bureau of Administration,
Office of the Procurement Executive, and the Bureau of Resource Management (RM) on
March 23, 2012, and discussed the results of this report. The officials concurred with the draft
report’s findings.

Review of Internal Controls

        During our review of internal controls, we determined whether contracts were entered
into within a CO’s warranted authority and whether Federal and Department standard processes
and procedures were followed by taking the following actions:

       We performed walkthroughs and interviews to gain an understanding of the Department’s
        internal control processes related to the issuance of warrant authority and the processes
        for identifying and ratifying unauthorized commitments. We also confirmed that
        corrective action plans were not prepared to address the deficiency.
       We performed walkthroughs and conducted interviews to gain an understanding of the
        Department’s waiver-of-authority process in which A/OPE was involved in approving
        contracts in excess of a CO’s warranted authority.
       We held discussions with officials at various posts to determine the procedures related to
        those contracts in excess of a CO’s warranted authority.
       We reviewed the A/OPE ratification database for known unauthorized commitments
        during the years in the scope. However, we did not verify the nature of the unauthorized
2 FPDS-NG is the contract actions reporting Web site developed and managed by the General Services
Administration. FPDS-NG provides real-time contract information to support policy development, trend analysis,
and special reporting for the President, Congress, agency executives, and the public. Federal Acquisition
Regulation 4.603(b), “Contract Reporting-Policy,” requires that agencies report in FPDS-NG all contracts for which
the estimated value is $3,000 or more and any modifications to those contracts regardless of dollar amount.
                                                   11
                                              UNCLASSIFIED
                                       UNCLASSIFIED
	

       commitments or determine whether the contract actions met all the procurement
       standards.

Use of Computer-Processed Data

        We used computer-processed data found in GFMS, FPDS-NG, and the internally
developed warrant authority database. GFMS did not have a standardized reporting process in
place to ensure the completeness, timeliness, and accuracy of contract actions information, as
noted in OIG’s March 2012 report.




                                            12
                                       UNCLASSIFIED
                                     UNCLASSIFIED
	
	


                                                                                                  Appendix B 


                                               Embassy of the United States of America




                                                           May 9, 2012



Harold W. Geisel
Deputy Inspector General
Office of the Inspector General
Washington, DC


Dear. Mr. Geisel,

Embassy Mexico City agrees with Recommendation 1 of the OIG's draft report Audit of
Contracting Officers Exceeding Delegated Procurement Authority for Overseas Contract
Awards. The primary contracting officer in 2009, who is no longer in Mexico City, remembers
obtaining NOPE's waiver of authority prior to the signing of the subject contract. However, to
date she has not been able to locate a copy of the authorization, nor has Embassy Mexico City's
contracting office been able to locate a copy in our records.




Minister-Counselor for Management Affairs, Acting




                                          13 

                                     UNCLASSIFIED
                                      UNCLASSIFIED
	


                                                                                                       Appendix C


                                                  Emhau \' of the United       St1llt'\   of America


                                                                        May 9. 2012



Mr. llarold Geisel
Deputy Inspector General
Oflice of the Inspector General
U.S. Department of State


Subject: Drall Report - Audit of Contracting Officers Exceeding Delegated Procurement
Authority for Overseas Contract Awards, AUD/CG-XX-XX, April2012


Mr. Geisel:

Following arc Embassy Abu Dhabi's comments on the draft subject report and recommendation
pertaining to post.

Recommendation 2: OIG recommends that the Management Counselor. Embassy Abu Dhabi.
United Arab Emirates. assess the identified unauthorized commitment to determine whether
ratification was appropriate and. if so. complete the ratification process as described in
Department of State Acquisition Regulations (subpart 60 1.602-3).

Status: Concur with the recommendation. This order was              in that it was for the pcm1anent
acquisition of23 places (scats) (b)(5)(b)(6)                                    current and future
Department of State dependents.        acqu                        was         vetted and approved
by the Department's Office of Overseas Schools and the Bureau prior to the actual acquisition.
Due to the last minute receipt of the funds (48 hours prior to the close or the fiscal year) post had
to quickly determine a method of delivering these funds to the school or risk losing both the
spaces and the funds. Neither a grant nor a Purchase Order seemed a fully appropriate vehicle
given the situation. (b)(5)(b)(6)                                                  at the time, a grant
seemed the least appropriate of the two actions and a Purchase Order was issued. lt is
understandab le. given the uniqueness of the action, that additional explanation is required. Post
hHS reviewed the action. determined that a ratification would be appropriate and initiated the
nttilication process with NOPE. A first draft of the ratification package WHS sent to NOPE in
March. 2012.


-/ , ~;--4:,~
Kristi Hogan
Management Counselor


Cc:    Evelyn Klcmstinc. Assistant Inspector General for Audits




                                           14 

                                      UNCLASSIFIED
                                    UNCLASSIFIED
	
	


                                                                                                 Appendix D 


                                                Embassy of the United States of America
                                                         Pretoria, South Africa



                                                                 May 7, 2012




Evelyn R. Klemstine
Assistant Inspector General for Audits
Office of Inspector General




Ms. Klemstine:

The U.S. Embassy, Pretoria, supports the Office of Inspector General (OIG) process, respects the
review process and appreciates this opportunity to respond to the OIG's findings that contract
SSF75009M0652 constituted an unauthorized commitment. Embassy Pretoria respectfully
disagrees with the finding that the contract SSF75009M0652 for conference services, in the sum
of$239,786.97 and approved on 3 March 2009, is an unauthorized commitment.

Embassy Pretoria's Contracting Officer (CO) with the regular contracting warrant of $250,000
integrally managed the entire acquisition process, from the solicitation, competitive process,
contract award, and contract administration. The only step where the CO could not be present
was to press the approval button in the Webpass system for the creation of the computer­
generated purchase order. As stated in the report, this was because the primary CO had a family
emergency and had to be away from Post for a few days in 2009, and the backup CO with
provisional warrant of $100,000 had to act on her behalf and approve the order in the Webpass
system. The back-up Contracting Officer approved the contract based on the primary
Contracting Officer' s verbal authority to approve it in her absence. The primary Contracting
Officer also left instructions that the contract not be approved until funds were made available,
which they were when the back-up CO provided approval.

Post believes this situation was a result of two factors: the limitations of the Webpass system for
electronic approval of purchase orders, and the fact that the backup CO had a provisional
contracting warrant. The Embassy has subsequently ensured that the primary and backup COs
have regular contracting warrants of $250,000, thereby avoiding situations such as the one
above. Additionally, the current Ariba-based procurement system has greater capabilities than
the old Webpass system - most specifically, the feature to delegate one's authority to another
Contracting Officer. Thus a CO who needs to be away for from Post can delegate their
contracting authority to other appropriately warranted COs within the Mission, allowing the CO
at another Post within the Mission to approve procurements in the Ariba system. Had this
flexibility been available in the old Webpass system, the above-mentioned situation would have
been avoided.




                                         15 

                                    UNCLASSIFIED
                                   UNCLASSIFIED
	




Should you have any questions, please contact me at +27- 12-431 -4230 or by email at
JacksonC4@state.gov.




                                                               Management Counselor




                                        16 

                                   UNCLASSIFIED
	
                               UNCLASSIFIED
	
	


                                                                                     Appendix E
	
	



                                                 United States Department of State

                                                 Washington, D.C. 20520




May 23,2012


MEMORANDUM

TO:         OIGAUD- Evelyn R. Klemstine

FROM:       A/OPE- Corey M. Rindner      .._:.-y::   ~..__,_

SUBJECT: Draft Report on Audit of Contracting Officers Exceeding Delegated
         Procurement Authority for Overseas Contract Awards dated April24,
         2012

Below is A/OPE's response to Recommendation 4 of the subject draft Audit of
Contracting Officers Exceeding Delegated Procurement Authority for Overseas
Contract Awards. Paulette Donnelly is the point of contact on this
recommendation and she can be reached on 703 516-1697.


Recommendation 4: OIG recommends that the Procurement Executive, Bureau of
Administration, Office of the Procurement Executive, develop either an automated
control or a manual control to compare overseas contract actions against warranted
authority at least annually and, if potential unauthorized commitments are
identified, request that post determine whether ratification is appropriate.

A/OPE Response: A/OPE concurs with recommendation No. 4 and will either
request funding for an automated control or implement a manual control if
resources are available to compare overseas actions against warranted authority at
posts.




                                    17 

                               UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs


            and resources hurts everyone. 




         Call the Office of Inspector General


                      HOTLINE
	   
	
                     202/647-3320 

                  or 1-800-409-9926
	
	
        to report illegal or wasteful activities.




               You may also write to


             Office of Inspector General


              U.S. Department of State


               Post Office Box 9778 

                Arlington, VA 22219



       Please visit our Web site at oig.state.gov



           Cables to the Inspector General


          should be slugged “OIG Channel”


              to ensure confidentiality.


UNCLASSIFIED






UNCLASSIFIED

